         Office of Inspector General




March 31, 2006

ELLIS A. BURGOYNE
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Audit Report – City Letter Carrier Operations – National Capping Report
         (Report Number DR-AR-06-004)

This report summarizes the results of our self-initiated audit of City Letter Carrier
Operations in the Pacific and Great Lakes Areas (Project Number 06XG009DR000).
This report summarizes a series of five reports on city letter carrier operations issued
under the Value Proposition Agreement between the vice president, Delivery and Retail,
and the U.S. Postal Service Office of Inspector General’s Delivery and Retail
directorate. Our overall objective was to assess the management of city letter carrier
operations.

Opportunities existed to improve the management of city letter carrier operations within
the U.S. Postal Service. Specifically, delivery facility supervisors and managers could
more effectively match workhours with workload by better using Postal Service
Form 3996, Carrier – Auxiliary Control, as a tool to manage daily delivery operations.
Delivery facility supervisors and managers also could improve delivery efficiency by
more consistently using operational data from the Delivery Operations Information
System (DOIS). In addition, supervisors and managers needed to more effectively use
the Managed Service Points (MSP) base information to monitor carrier performance,
and track and document letter carriers’ unauthorized overtime occurrences and take
corrective action. Managing delivery facilities using delivery policy, procedures, and
management tools could reduce the unjustified and unauthorized time occurring on
routes.

We recommended district managers direct station managers and supervisors to enforce
the policy for carriers to complete required forms when volume or workload indicates
that additional time on the route is needed, and instruct supervisors to address carrier
requests and only authorize time requested. We also recommended district managers
require supervisors and managers to use DOIS Reports in a timely manner to manage
daily operations and to use MSP more effectively. In addition, we recommended district
managers require supervisors and managers to consistently document unauthorized
overtime on required forms and take corrective action.
District management in the Pacific and Great Lakes Areas agreed with our findings,
recommendations, unrecoverable costs of $7,061,060, and implemented actions and
developed initiatives to address the issues in the reports.

During our review (September 2005), the vice president, Delivery and Retail, issued a
letter stating that delivery and retail units will officially implement standard delivery
management practices and operating procedures beginning in fiscal year 2006.
Therefore, no additional recommendations are included in this report.

We appreciate the cooperation and courtesies provided during all the audits of city letter
carrier operations. If you have any questions or need additional information please
contact Rita Oliver, director, Delivery and Retail, or me at (703) 248-2100.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




for
Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    James Kiser
    Steven R. Phelps
City Letter Carrier Operations –                       DR-AR-06-004
 National Capping


                                   TABLE OF CONTENTS

 Executive Summary                                               i

 Part I

 Introduction                                                   1

     Background                                                 1
     Objectives, Scope, and Methodology                         3
     Prior Audit Coverage                                       4

 Part II

 Audit Results                                                  5

 Workhours to Workload                                          5
 Supervisors’ Use of DOIS Reports                               7
 Managed Service Points Base Information                        9
 Unauthorized Time                                             10
 District Management Implemented Corrective Actions            11
 Headquarters Management Corrective Action                     11
 Office of Inspector General Nationwide Review                 11

 Appendix A. Summary of District “3996 Audits”                 12

 Appendix B. OIG Calculation of Unrecoverable Costs            13

 Appendix C. Prior Audit Coverage                              14
City Letter Carrier Operations –                                                          DR-AR-06-004
 National Capping


                                     EXECUTIVE SUMMARY
 Introduction                      This report summarizes the results of our self-initiated
                                   audits of city letter carrier operations in the Pacific and
                                   Great Lakes Areas. The overall objective was to assess the
                                   management of city letter carrier operations.

 Results in Brief                  Our audits determined that opportunities existed to improve
                                   the management of city letter carrier operations. Delivery
                                   facility supervisors and managers did not adequately match
                                   workhours with workload because they did not often use
                                   U.S. Postal Service Form 3996, Carrier – Auxiliary Control,
                                   as a tool to manage daily operations. The “3996 audits”
                                   performed at the five districts identified 12,435 unjustified
                                   hours (97 percent) of the total 12,877 hours that were
                                   expended on routes with time used over 8 hours during the
                                   5-month periods of our reviews. We projected the sampled
                                   results to all similarly sized delivery facilities in each district
                                   for a total of 343,332 unjustified hours. Headquarters
                                   management and the U.S. Postal Service Office of
                                   Inspector General agreed to 50 percent of the total WebEIS
                                   variance as unrecoverable costs for the five district audits,
                                   which amounted to $7,061,060. (See Appendices A and B.)

                                   Supervisors and managers did not always timely view
                                   Delivery Operations Information System (DOIS) operational
                                   reports to assist in managing delivery operations. This
                                   occurred because supervisors felt uncomfortable with some
                                   reports, were rushed in the morning and relied on
                                   experience, or did not view DOIS reports as a high priority.

                                   Delivery facility managers did not consistently use Managed
                                   Service Points (MSP) base information to effectively monitor
                                   carrier street performance. Supervisors stated they did
                                   not always have time to review and analyze DOIS reports
                                   and, in some cases, had not received MSP training. We
                                   reviewed the base MSP information for all routes at the
                                   facilities sampled in the five districts and identified 614 of
                                   1,193 routes where office or street times had excessive
                                   interval times or were out of sequence.

                                   Supervisors and managers at the districts sampled did not
                                   always properly track and document letter carriers’
                                   unauthorized overtime. Supervisors said they attempted to
                                   speak with carriers about unauthorized overtime, but did not



                                                      i
City Letter Carrier Operations –                                                      DR-AR-06-004
 National Capping



                                   often track occurrences and fill out the PS Form 1017-B,
                                   Unauthorized Overtime Record, log.

                                   Area and district management comments to our individual
                                   reports were responsive to our recommendations and
                                   discussed actions already implemented or initiatives
                                   developed to address the findings and recommendations.
                                   During our review (September 2005), the vice president,
                                   Delivery and Retail, issued a letter stating that delivery and
                                   retail units will officially implement standard delivery
                                   management practices beginning in fiscal year 2006. A key
                                   component of city delivery standardization is the morning
                                   standard operating procedures (AM SOP) program and new
                                   Delivery Standard Operating Procedures related to our
                                   district findings and recommendations.

 Summary of                        We are making no additional recommendations in this
 Recommendations                   report. Management’s comments to our individual reports
                                   and actions implemented, including those by the vice
                                   president, Delivery and Retail, were responsive to our
                                   recommendations and their planned actions should correct
                                   the issues identified in the reports.




                                                    ii
City Letter Carrier Operations –                                                                     DR-AR-06-004
 National Capping


                                        INTRODUCTION
    Background                     The Delivery Operations Information System (DOIS),
                                   deployed in fiscal year (FY) 2002, provides operational data
                                   to supervisors and managers at delivery facilities to help
                                   them manage daily carrier operations and reduce costs.
                                   DOIS provides workload assessment data to project carrier
                                   office and street times and performance metrics from prior
                                   days. An objective of DOIS is to help match workhours to
                                   workload each day to maintain unit efficiency. The U.S.
                                   Postal Service developed DOIS at an estimated cost of
                                   nearly $100 million. Training personnel to use the system
                                   has cost approximately $1.2 million.

                                   Routes in a city delivery facility have an established office
                                   and street time (usually 8 hours) based on the last route
                                   inspection. One aspect of a delivery facility’s daily
                                   operations is city letter carriers preparing and submitting
                                   Postal Service (PS) Forms 3996, Carrier – Auxiliary Control,
                                   to request overtime or assistance on their routes. The
                                   supervisor reviews each request and approves the
                                   additional time, decreases the time, assigns assistance,
                                   curtails mail, or denies the request. The supervisor bases
                                   this decision on the daily workload or mail volume the
                                   delivery facility receives.

                                   To determine the amount of unauthorized and unjustified
                                   overtime on routes, supervisors can perform a “3996 audit”
                                   of a delivery facility’s activities. Using the DOIS Workload
                                   Status Report,1 PS Form 3996,2 and the Route/Carrier Daily
                                   Performance Report,3 a supervisor reviews several factors:

                                       •    The amount of time the carrier requests for the route.

                                       •    The amount of time the supervisor approves for the
                                            route.

                                       •    The total time the carrier uses on the route.

                                       •    The justified and unjustified time.


1
  Workload Status Reports give management data such as volume, parcel, and delivery point sequenced
mail for them to use in making effective decisions in matching workhours to workload.
2
  Carriers complete PS Forms 3996 to request overtime or auxiliary assistance on their routes for days when
they estimate the route will exceed 8 hours because of workload and volume.
3
  The Route/Carrier Daily Performance Report helps supervisors evaluate the performances of all routes
within a delivery unit for a single day.

                                                    1
City Letter Carrier Operations –                                                      DR-AR-06-004
 National Capping


                                   In addition to reviewing PS Forms 3996, an analysis of
                                   completed PS Forms 1017-B, Unauthorized Overtime
                                   Record, can determine whether supervisors are correcting
                                   carrier performance issues.

                                   Managed Service Points (MSP) is a computerized tool
                                   designed to monitor consistency of delivery time and
                                   enhance street management. The Postal Service
                                   developed MSP in-house at an estimated cost of $700,000.
                                   The Postal Service then rolled MSP into DOIS at a cost of
                                   $1.1 million. Although the intent of MSP was to ensure
                                   better on-time delivery, supervisors can also use it to help
                                   improve carrier street time.

                                   Before MSP, there was no system to provide reports on
                                   street performance. With MSP, letter carriers use mobile
                                   data collection devices (DCDs) to scan barcodes placed at
                                   service points reflecting key elements of the employee
                                   workday. At the conclusion of each workday, the carrier
                                   downloads the MSP data from the DCD into DOIS.
                                   Management compares this data to the route MSP base
                                   information that employees store in DOIS to generate
                                   reports supervisors use to evaluate the carrier’s
                                   performance.

                                   During FY 2005, Delivery Operations Management
                                   implemented AM Standard Operating Procedures
                                   (AM SOP). The objectives of the procedures were to:

                                      1. Provide a standardized procedure for the
                                         management of a.m. Delivery Service Operations.

                                      2. Provide consistent, timely, and cost-effective delivery
                                         services by ensuring all supervisors, managers, and
                                         postmasters are printing, reviewing and acting upon
                                         reports in a timely manner in order to make better
                                         business decisions.

                                   The AM SOP states that carriers are to accurately and
                                   timely complete PS Forms 3996 to match workhours to
                                   workload, and supervisors must timely analyze them and
                                   take action. In addition, supervisors must print DOIS
                                   reports and use them to conduct office and street
                                   management.




                                                2
City Letter Carrier Operations –                                                       DR-AR-06-004
 National Capping



                                   The vice president, Delivery and Retail, issued a letter on
                                   September 30, 2005, stating that delivery and retail units will
                                   officially implement standard delivery management
                                   practices beginning in FY 2006. A key component of city
                                   delivery standardization is the AM SOP program and new
                                   Delivery SOPs. The procedures state that the delivery
                                   supervisor’s primary responsibility is to match workhours to
                                   workload.

 Objectives, Scope,                Our overall objective was to assess the management of city
 and Methodology                   letter carrier operations. Specifically, we determined
                                   whether delivery supervisors and managers adequately
                                   matched workhours with workload, used DOIS reports in a
                                   timely manner to manage operations, and effectively used
                                   MSP base information to monitor carrier performance.

                                   During our audit, we visited the Santa Ana and San Diego
                                   Districts in the Pacific Area and the Chicago, Detroit, and
                                   Greater Indiana Districts in the Great Lakes Area. To
                                   accomplish our objectives, we randomly selected
                                   six delivery facilities in each district having between 30
                                   and 55 routes.

                                   To determine whether delivery facility supervisors/managers
                                   adequately matched workhours with workload, we randomly
                                   selected 20 days for each delivery facility and conducted
                                   “3996 audits” for each day to quantify the amount of
                                   unjustified time. We also observed the delivery facility
                                   supervisors’ and station managers’ morning activities of
                                   measuring and recording mail volume, reviewing DOIS
                                   Workload Status Reports, and approving overtime.

                                   To determine whether delivery facility supervisors and
                                   managers effectively used DOIS reports in a timely manner,
                                   we analyzed the time each day that supervisors first
                                   generated the Workload Status, Route/Carrier Daily
                                   Performance, and MSP Overview Reports. We also
                                   reviewed base MSP information for all routes at the
                                   six delivery facilities and reviewed the use of the log for PS
                                   Forms 1017-B.




                                                 3
City Letter Carrier Operations –                                                              DR-AR-06-004
 National Capping



                                   This audit4 was conducted from December 2004 through
                                   March 2006 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as we considered necessary under the
                                   circumstances. We relied on data obtained from the Web
                                   Enabled Enterprise Information System (WebEIS) and
                                   DOIS. We did not audit these systems, but performed a
                                   limited data integrity review to support our reliance on data.
                                   We discussed our observations and conclusions with
                                   management officials and included their comments where
                                   appropriate.

    Prior Audit Coverage           The U.S. Postal Service Office of Inspector General (OIG)
                                   has issued five audit reports related to our objectives. The
                                   reports all identified opportunities to improve management
                                   of city letter carrier operations at the districts audited. (See
                                   Appendix C.)

                                   The OIG also issued one audit report related to the
                                   objectives prior to beginning this work under the Value
                                   Proposition:

                                   City Letter Carrier Operations – Rio Grande District (Report
                                   Number DR-AR-05-009, dated December 2, 2004). The
                                   report outlined opportunities to improve management of city
                                   letter carrier operations in the Rio Grande District. Delivery
                                   facility supervisors and managers did not adequately
                                   match workhours with workload. We projected that the
                                   three delivery facilities had 5,318 unjustified hours (at an
                                   estimated cost of $193,947) not supported by volume or
                                   workload over a 5-month period. We reported 2,543 of the
                                   unjustified hours – or $92,762 – as unrecoverable costs.
                                   We also noted that supervisors and managers did not
                                   effectively use DOIS to manage daily operations, and
                                   delivery unit supervisors and managers did not consistently
                                   perform street management or effectively use MSP to
                                   monitor city letter carriers’ street time to correct negative
                                   trends.




4
 Project Number 05YG007DR000 – City Letter Carrier Operations – Great Lakes Area and Project Number
05YG005DR000 – City Letter Carrier Operations – Pacific Area – will be closed out with this report.

                                                 4
City Letter Carrier Operations –                                                                        DR-AR-06-004
 National Capping


                                         AUDIT RESULTS
    Workhours to                    Delivery facility supervisors and managers could more
    Workload                        effectively match workhours with workload. The “3996
                                    audits” performed at the five districts (30 individual delivery
                                    facilities) identified 12,435 unjustified hours (97 percent) of
                                    the total 12,877 hours that were expended on routes with
                                    time used over 8 hours during the 5-month periods of our
                                    reviews. The unjustified hours occurred primarily because
                                    carriers did not often submit PS Forms 3996 to document
                                    their requests for additional time. In addition, carriers did not
                                    always properly complete PS Forms 3996 and supervisors
                                    did not always approve their requests. We projected the
                                    sampled results to all similarly sized delivery facilities in
                                    each district for a total of 343,332 unjustified hours.
                                    Headquarters management and the OIG agreed to 50
                                    percent of the total WebEIS variance as unrecoverable costs
                                    for the five district audits, which amounted to $7,061,060.
                                    (See Appendices A and B.)

    PS Form 3996,                   Carriers did not consistently submit PS Forms 3996 to
    Carrier – Auxiliary             request additional time for routes. Of the 599 days5
    Control                         reviewed in the five district audits, 8,614 of the 10,495 total
                                    unjustified hours (82 percent) were the result of carriers not
                                    submitting the forms. Though the PS Form 3996 has been
                                    required for years, delivery facility and district management
                                    have not emphasized the use of the form as a tool to help
                                    manage daily operations. Instead, supervisors verbally
                                    discussed workload issues with carriers. Supervisors felt
                                    the verbal discussions with carriers took less time and were
                                    less confrontational.

                                    When carriers submitted PS Forms 3996, they did not
                                    always properly document their requests for additional time.
                                    For example, carriers listed reasons on PS Form 3996 for
                                    overtime, but did not list corresponding amounts of time. In
                                    addition, supervisors did not always properly approve or
                                    disapprove carriers’ requests.

                                    Postal Service Handbook M-41, City Delivery Carrier Duties
                                    and Responsibilities, Section 131.41 (updated with Postal
                                    Bulletin revisions through April 2001), states that the carrier
                                    is responsible for completing PS Form 3996 if management
                                    authorizes overtime or auxiliary assistance for the office or

5
  Twenty days at six facilities equals 120 days, times four districts equals 480 days. Twenty days at five
facilities, plus 19 days at one facility, equals 119 days at one district. The two total 599 days.

                                                      5
City Letter Carrier Operations –                                                                               DR-AR-06-004
 National Capping


                                      the street. In addition, Section 28 states that the carrier
                                      must show the reason for requesting assistance on his/her
                                      route in detail on PS Form 3996. In addition, PS Form 3996
                                      has a section for management to approve or disapprove
                                      carriers’ overtime requests.

                                      The sampled delivery facilities also did not always keep
                                      route information readily available for parcels,
                                      accountables,6 and full coverage times.7 This data is critical
                                      because the volume for these items may increase or
                                      decrease each day on a carrier’s route. Without this
                                      information, supervisors do not have objective data to
                                      approve overtime requests.

    Delivery Supervisor               During our audits, we observed delivery supervisors’
    Duties                            morning duties of measuring mail, reviewing DOIS reports,
                                      approving overtime, and interacting with carriers. We were
                                      impressed with the level of dedication and pride delivery
                                      supervisors exhibited in ensuring the mail was delivered
                                      each day. We also witnessed the difficulty of their duties,
                                      especially during the critical morning hours.

                                      In our view, two particular challenges these supervisors face
                                      may have indirectly contributed to the incidents of unjustified
                                      time we identified. First, there were concerns about pay.
                                      Supervisors expressed concern that the pay level was the
                                      same whether they managed a 12-route delivery facility or a
                                      more demanding 35-route facility. In addition, we found that
                                      letter carriers temporarily acting as supervisors were
                                      reluctant to apply for full-time supervisor positions because
                                      of the demands of the job and the pay level. One supervisor
                                      told us he is now earning less as a full-time delivery
                                      supervisor than he was as a letter carrier. These types of
                                      circumstances can be detrimental to some individuals’
                                      motivation. Second, there were concerns with personnel
                                      turnover. We sometimes found high turnover in delivery
                                      facilities and various supervisors and managers placed on
                                      details to other positions and/or in other facilities, which
                                      made continuity and consistency of operations more difficult.




6
  Accountable mailpieces include Express Mail and certified mail packages the carrier must deliver, and
usually require the customer’s signature.
7
  Full coverage is the additional time granted to a city letter carrier to deliver mail on a particular day to all
possible delivery points on a route.

                                                          6
City Letter Carrier Operations –                                                                      DR-AR-06-004
 National Capping




    Supervisors’ Use of            Supervisors and managers did not always timely view
    DOIS Reports                   DOIS operational reports to assist in managing delivery
                                   operations. This occurred because supervisors were
                                   uncomfortable with some reports, felt rushed in the morning
                                   and relied on experience, or did not view DOIS reports as a
                                   high priority. The DOIS Quality Assessment of
                                   September 9, 2002, states that supervisors must use DOIS
                                   to manage daily facility operations.

                                   Supervisors and managers did not always review the
                                   Workload Status, Route/Carrier Daily Performance, and
                                   MSP Overview Reports in a timely manner to manage
                                   delivery operations and provide objective data for approving
                                   carrier overtime requests. (See Table 1.)


                                                   Table 1. Supervisors’ DOIS Activity
                                                     5-Month Period at each District

                                                             Days            Days
                                                          Workload       Route/Carrier
                                                            Status           Daily          Days
                                                         Report Not      Performance        MSP
                                                           Viewed         Report Not      Overview
                                                            Before         Viewed          Report
                                        Districts        8:00 a.m. or     Before 8:00        Not
                                                                    8
                                       Reviewed           8:30 a.m.          a.m.          Viewed       Workdays
                                    Santa Ana                     291              346          338           762
                                    San Diego                     281              245          224           762
                                    Chicago                       169               98          116           744
                                    Detroit                        28              278          254           750
                                    Greater Indiana               112              204          185           750
                                              TOTAL               881            1,171        1,117         3,768
                                   Source: Postal Service DOIS Reports


                                   Supervisors did not view the Workload Status Report before
                                   the required time in 881 of 3,768 instances (23 percent); did
                                   not view the Route/Carrier Daily Performance Report before
                                   8:00 a.m. in 1,171 of 3,768 instances (31 percent); and did
                                   not view the MSP Overview Report in 1,117 of
                                   3,768 instances (30 percent).

                                   Supervisors affected their ability to make decisions in
                                   matching workhours to workload when they did not review
                                   operational data such as mail volume, carrier performance,
                                   and street delivery activities in the DOIS. In addition,
8
 The time for viewing the Workload Status Report was 8:00 a.m., but the Detroit and Greater Indiana
Districts adhered to an area policy stating the report must be viewed by 8:30 a.m.

                                                    7
City Letter Carrier Operations –                                                    DR-AR-06-004
 National Capping


                                   improving the review of DOIS reports would help delivery
                                   supervisors and managers take timely corrective action to
                                   address carrier performance issues. A large capital
                                   investment was made in the DOIS to assist supervisors;
                                   however, our audits found supervisors did not use this
                                   management tool to its fullest extent.




                                                8
City Letter Carrier Operations –                                                                    DR-AR-06-004
 National Capping




    Managed Service                Delivery facility managers did not consistently use MSP
    Points Base                    base information to effectively monitor carrier street
    Information                    performance. We reviewed the base MSP information for
                                   all routes at the facilities sampled in the five districts and
                                   identified 614 of 1,193 routes (52 percent) where office or
                                   street times had excessive interval times or were out of
                                   sequence during the audit scope period.9

                                   Examples of out-of-sequence conditions included:

                                       •   Return to office time before the last delivery.

                                       •   Excessive return to office time.

                                       •   Two different streets with the exact same scan time.

                                       •   Delivery times defaulted to 12:00 a.m.

                                   The out-of-sequence times occurred as a result of
                                   supervisors not having a current PS Form 3999, Inspection
                                   of Letter Carrier Route; not using a current form to update
                                   the route pivot plans; or not updating the pivot plan to reflect
                                   new starting times or carriers’ lunch breaks. The route pivot
                                   plan is a detailed description of the route that the city
                                   delivery carrier should follow while delivering mail on the
                                   street. The manager or supervisor must update the form
                                   and the pivot plan to reflect any route changes to ensure the
                                   correct placement of MSP scan points.

                                   Delivery managers and supervisors stated they did not
                                   always remember to update the pivot plans and base
                                   information. Also, some delivery supervisors said they had
                                   not received much or any MSP training and did not always
                                   have time to review and analyze DOIS reports. MSP was
                                   initially developed to improve customer service; however,
                                   the program can also be an effective tool to help
                                   supervisors monitor and address any carrier street
                                   performance issues.




9
 Out-of-sequence conditions occur when the scheduled times for the route do not occur in chronological
order.

                                                    9
City Letter Carrier Operations –                                                                               DR-AR-06-004
 National Capping




 Unauthorized Time                      Supervisors and managers in the districts sampled did
                                        not always properly track and document letter carriers’
                                        unauthorized overtime. Supervisors stated that
                                        unauthorized overtime was not a high priority among all
                                        their other tasks. Supervisors also said they attempted to
                                        speak with carriers about unauthorized overtime, but did not
                                        often track occurrences by filling out the PS Form 1017-B,
                                        Unauthorized Overtime Record, log.

                                        As shown in Table 2, there were 528 1017-B log entries
                                        for all 599 days sampled at the 30 delivery facilities10
                                        reviewed. We noted that 373 of the entries occurred at just
                                        three facilities. The other 27 delivery facilities had only
                                        155 entries over the same 599 days.

                                                Table 2. Summary of PS Form 1017-B Log Entries


                                                                         Total Number
                                                                           of 1017-B
                                                                           Entries for
                                                     District            Sampled Days             Number of
                                                    Reviewed            in each District        Days Sampled
                                                Santa Ana                         2                      119
                                                San Diego                        16                      120
                                                Chicago                         228                      120
                                                Detroit                         211                      120
                                                Greater Indiana                  71                      120
                                                Overall                         528                      599
                                        Source: Postal Service Delivery Facility Records


                                        Handbook F-401, Supervisor’s Guide to Scheduling and
                                        Premium Pay, Chapter, 5, Section F, August 2000, states
                                        employees are responsible for adhering to their assigned
                                        work schedules. A variance from the assigned work
                                        schedule will result in unauthorized overtime. Supervisors
                                        must document these occurrences on PS Form 1017-B and
                                        take corrective action.

                                        Supervisors said documenting unauthorized overtime was
                                        not a high priority. As part of the AM SOP, supervisors are
                                        required to accurately complete, analyze, and act upon PS
                                        Form 1017-B. Because supervisors did not document
                                        unauthorized overtime, they could not as effectively consult


10
     Six delivery facilities randomly sampled in five districts equals 30 delivery facilities sampled.

                                                          10
City Letter Carrier Operations –                                                       DR-AR-06-004
 National Capping



                                   with carriers or correct carrier performance issues to assist
                                   in managing overtime hours.

 District Management               District management agreed with the findings and
 Implemented                       recommendations of the five reports. Based on these
 Corrective Actions                findings, officials implemented some new procedures and
                                   provided some training in MSP and unauthorized overtime
                                   to correct issues identified in the reports.

 Headquarters                      Based on our findings and recommendations in these
 Management                        reports, the vice president, Delivery and Retail, issued a
 Corrective Action                 letter on September 30, 2005, stating that delivery and retail
                                   units will officially implement standard delivery management
                                   practices beginning in FY 2006. A key component of city
                                   delivery standardization is the AM SOP program and new
                                   Delivery SOPs. The procedures establish standard
                                   practices for managing all delivery and retail functions at the
                                   unit level and oversight responsibilities at each tier of
                                   management above the unit level. For example, the
                                   procedures state that the delivery supervisor’s primary
                                   responsibility is to match workhours to workload.

 OIG Nationwide                    In January 2006, the OIG initiated audits to assess
 Review                            implementation of the Delivery and Retail SOPs in selected
                                   areas, districts, and delivery and retail units.




                                                11
City Letter Carrier Operations –                                                                                                                                                                             DR-AR-06-004
 National Capping




             APPENDIX A. SUMMARY OF DISTRICT “3996 AUDITS”




                                                                                                 Total Unjustified Time in Minutes
                                                                Total Time Used Greater than




                                                                                                                                     Total Unjustified Percentage




                                                                                                                                                                                                     No PS Form 3996 but Route
                                                                                                                                                                         Total Routes Greater than




                                                                                                                                                                                                     Greater than 8 Hours
                                                                8 Hours in Minutes
                                         5-Month Period
    Number




                                                                                                                                                                         8 Hours
                       District




        1    Santa Ana            05/01/04 – 09/31/04          132,251                         127,587                                                              97       2,039                       1,606
        2    San Diego            05/01/04 – 09/31/04           98,397                          95,435                                                              97       1,656                       1,371
        3    Chicago              09/01/04 – 01/31/05          218,872                         216,354                                                              99       2,427                       2,264
        4    Detroit              01/01/05 – 05/31/05          140,274                         136,415                                                              97       1,918                       1,709
        5    Greater Indiana      01/01/05 – 05/31/05          182,851                         171,402                                                              94       2,455                       1,664
             TOTALS                                            772,645                         747,193                                                              97   10,495                          8,614
                                  Minutes converted
                                      to hours                 12,877                           12,453




                                                          12
   City Letter Carrier Operations –                                                         DR-AR-06-004
    National Capping




    APPENDIX B. OIG CALCUATION OF UNRECOVERABLE COSTS

                                           Unrecoverable
                                            Workhours               Cost of
                        Unjustified          identified         Unrecoverable
                        Workhours             by using            Workhours
                      projected by the     50 percent of       using 50 percent   5-Month Period of
                      OIG from “3996        the WebEIS          of the WebEIS     “3996 audits” and
      District            audits”             variance             variance       WebEIS variance
Santa Ana                         83,864              58,345          2,127,852   05/01/04 – 09/30/04

San Diego                         53,835              39,044          1,423,935   05/01/04 – 09/30/04

Chicago                           78,248              53,944          2,020,200   09/01/04 – 01/31/05

Detroit                           59,208              18,587           723,586    01/01/05 – 05/31/05

Greater Indiana                   68,177              19,663           765,487    01/01/05 – 05/31/05

            TOTAL                343,332          189,583             7,061,060




                                                 13
City Letter Carrier Operations –                                              DR-AR-06-004
 National Capping


                                   APPENDIX C

                               PRIOR AUDIT COVERAGE

City Letter Carrier Operations – Greater Indiana District (Report Number DR-AR-
06-003, dated March 28, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Greater Indiana District.
Delivery facility supervisors and managers did not adequately match workhours
with workload. We projected the sample results for a total of 68,177 unjustified
hours over the 5-month period from January 1 through May 31, 2005, that were
not supported by volume or workload. We agreed with headquarters delivery
management to unrecoverable costs of $765,487. We also noted that
supervisors and managers did not always view DOIS reports in a timely manner
to manage operations, consistently use MSP to monitor city letter carriers’ street
time to correct negative trends, or properly document letter carriers’ unauthorized
overtime occurrences and take corrective action.


City Letter Carrier Operations – Detroit District (Report Number DR-AR-06-002,
dated February 8, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Detroit District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 59,208 unjustified hours
over the 5-month period from January 1 through May 31, 2005, that were not
supported by volume or workload. We agreed with headquarters delivery
management to unrecoverable costs of $723,586. We also noted that
supervisors and managers did not always view DOIS reports in a timely manner
to manage operations, consistently use MSP to monitor city letter carriers’ street
time to correct negative trends, or properly document letter carriers’ unauthorized
overtime occurrences and take corrective action.


City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019,
dated September 29, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the Chicago District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 78,248 unjustified hours
over the 5-month period from September 1, 2004, through January 31, 2005, that
were not supported by volume or workload. We agreed with headquarters
delivery management to unrecoverable costs of $2,020,200. We also noted that
supervisors and managers did not always view DOIS reports in a timely manner
to manage operations, consistently use MSP to monitor city letter carriers’ street
time to correct negative trends, or properly document letter carriers’ unauthorized
overtime occurrences and take corrective action.


                                        14
City Letter Carrier Operations –                                            DR-AR-06-004
 National Capping




City Letter Carrier Operations – Santa Ana District (Report Number DR-AR-05-
013, dated August 8, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the Santa Ana District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 83,864 unjustified hours
over the 5-month period from May 1 through September 30, 2004, that were not
supported by volume or workload. We agreed with headquarters and Pacific
Area delivery management to unrecoverable costs of $2,127,852. We also noted
that supervisors and managers did not always view DOIS reports in a timely
manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.


City Letter Carrier Operations – San Diego District (Report Number DR-AR-05-
014, dated August 8, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the San Diego District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 53,835 unjustified hours
over the 5-month period from May 1 through September 30, 2004, that were not
supported by volume or workload. We agreed with headquarters and Pacific
Area delivery management to unrecoverable costs of $1,423,935. We also noted
that supervisors and managers did not always view DOIS reports in a timely
manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.




                                       15
